NATIONAL CREDIT UNION ADMINISTRATION

      OFFICE OF INSPECTOR GENERAL




                   NCUA'S CONFERENCE
                  RELATED ACTIVITIES AND
                        EXPENSES

                      Report #OIG-13-07
                        May 29, 2013




                     William A. DeSarno
                     Inspector General



Released by:                         Auditor-in-Charge:


James Hagen                          Allison D. Washington
Deputy Inspector General             Senior Auditor
                       TABLE OF CONTENTS


Section                                    Page




ACRONYMS AND ABBREVIATIONS                  ii


EXECUTIVE SUMMARY                           1


BACKGROUND                                  3


OBJECTIVES, SCOPE, AND METHODOLOGY          5


RESULTS IN DETAIL                           6

  A. Conference Policy and Guidelines       6

  B. NCUA Conference Review                16


APPENDIX

  A. NCUA Management Response              21
         ACRONYMS AND ABBREVIATIONS



CFR     Code of Federal Regulations
FAR     Federal Acquisition Regulation
FTR     Federal Travel Regulation
GSA     General Services Administration
GWACS   Government-Wide Acquisition Contracts
NCUA    National Credit Union Administration
OHR     Office of Human Resources
OIG     Office of Inspector General
OMB     Office of Management and Budget
RFP     Request for Proposal
SSP     Senior Staff Position




                          ii
NCUA's Conference Related Activities and Expenses
OIG-13-07

EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a self-initiated audit of NCUA’s conference related activities and expenses.
On November 9, 2011, the President of the United States issued Executive Order
13589 (the Order), Promoting Efficient Spending, and tasked the Office of Management
and Budget (OMB) with agency oversight. As an independent agency, NCUA is not
required to follow the Order; however, NCUA indicated it would strive to comply with the
intent of the Order. Accordingly, our objective for this review was to determine whether
NCUA’s conference related activities and expenses complied with the spirit of the OMB
guidance. To accomplish this objective, we obtained and reviewed NCUA guidance,
policies, procedures, and other available information regarding conference activities and
expenses for comparison with OMB instructions and other Federal Government
guidance. In addition, we interviewed NCUA Office of Human Resources (OHR)
management and staff. We also reviewed and analyzed procedures, expenses and
other related information and activities for judgmentally selected NCUA conferences
held from January 2010 through January 2013.

We determined that NCUA conference policy and procedures generally conform with the
intent of the Executive Order and the spirit of OMB guidance. For example, OMB
Memorandum M-11-35, Eliminating Excess Conference Spending and Promoting
Efficiency in Government, instructed all agencies to conduct a thorough review of the
policies and controls associated with conference related activities and expenses.
Consequently, a NCUA Executive Director Memo addressed office and regional meeting
costs and provided ways to promote greater efficiency and help control costs.
Additionally, to help comply with the spirit of the Order, NCUA implemented Instruction
1501, Conference Planning Policies, Procedures, and Approval Requirements. This
instruction defines small and large conferences and assigns responsibly accordingly. For
instance, the agency event planner assumes responsibility of large conferences, sends
out and reviews bid proposals, and contracts with the approved conference site.

We also determined NCUA’s conference policy and guidelines generally meet and in
some instances exceed federal policies and guidelines in regards to conference spending
and cost controls. Specifically, OMB Memorandum M-12-12, Promoting Efficient
Spending to Support Agency Operations, requires a senior level review of conferences
costing over $100,000; whereas, NCUA Instruction 1501 requires concurrence from the
Executive Director for all conferences over $50,000. Finally, we determined that NCUA
conducted the conferences we reviewed in accordance with its policy and the NCUA
conferences we reviewed held from May 2012 through January 2013, also complied with
the spirit of the Order and OMB guidance.

However, we determined that an inconsistency exists between NCUA’s Procurement
Manual and Instruction 1501 regarding the maximum allowed lodging rate. The
Procurement Manual allows a lodging rate of up to a maximum of 150 percent over the
General Services Administration (GSA) rate; whereas Instruction 1501 requires the
event planner to obtain only the GSA rate. In addition, we also determined that

                                                1
NCUA's Conference Related Activities and Expenses
OIG-13-07

although NCUA immediately publicly disclosed the costs of its 2012 National Training
Conference on its website, NCUA did not disclose six off-site training sessions that
occurred later in 2012, where the related expenses each exceeded $100,000. We
determined these six training sessions met both the Federal Travel Regulation’s
definition of a conference and OMB’s Memorandum M-12-12 public disclosure
requirement of posting to the agency’s official website details of any conference where
costs exceed $100,000. Finally, we determined NCUA did not always track all
conference expenditures such as including employee travel costs and daily meals and
incidental expense allowances as part of its total conference expenses.

Accordingly, this report makes four recommendations and one suggestion, which the OIG
believes can help NCUA fully comply with the intent of the Order and the spirit of OMB
guidance. NCUA management agreed with our findings and recommendations, and
plans to take corrective action. We have included management‘s comments in their
entirety in Appendix A.

We appreciate the courtesies and cooperation NCUA management and staff provided to
us during this review.




                                                2
NCUA's Conference Related Activities and Expenses
OIG-13-07

BACKGROUND

NCUA is an independent federal agency that regulates, charters, and supervises federal
credit unions. NCUA, which receives no appropriations for its operations, is funded by
credit union fees. A presidentially appointed Board governs NCUA, with its Office of the
Executive Director overseeing day-to-day operations. NCUA’s Office of Human
Resources (OHR) coordinates employee training through its Division of Training and
Development.

Seventy-five percent of NCUA field staff is geographically dispersed, making it important
to bring staff together for training. Consequently, NCUA sponsors national and regional
conferences for employees to provide information about emerging issues, divisional
priorities and initiatives, group training, and networking opportunities. NCUA pre-plans
and accounts for conferences and employee training costs in its annual budget, which
include:

         •   The National Training Conference 1 – Held biennially during even numbered
             years, this conference brings all NCUA staff together to receive continuing
             job-related training and updates on critical changes within the industry and
             changes to agency policies. Because field staff works independently, this
             conference provides the opportunity for both field and regional staff to
             collaborate and work on strategic planning. This conference replaces one of
             two weeks of mandatory annual training for most examiners.

         •   The Senior Staff Position (SSP) Conference – Held annually, this conference
             brings senior executive staff together for strategic planning, training, and to
             help set the vision and direction for the upcoming year.

         •   The Leadership Conference – Held biennially during odd numbered years,
             this conference allows NCUA managers and supervisors to collaborate and
             focus on critical issues and strategic planning for the agency. Attendees also
             receive training on the agency's latest polices.

         •   Off-Site Conferences – Held on a regularly scheduled basis for either
             business or training purposes, these conferences provide staff with
             information or training that relates directly to NCUA’s mission. Many off-site
             conferences involve core and/or required training and include topics such as
             residential mortgage lending, consumer protection, problem resolution, exam
             issues forum, capital markets, and more. Additionally, regional offices hold
             regular staff meetings that result in employee travel. 2

In recent years, other OIGs have found instances of excessive and wasteful conference
spending. For example, during the last quarter of 2011 the Department of Justice OIG
1
  The National Training Conference was formerly known as the Regional Conference.
2
  For the purpose of this review, off-site conferences are training classes and staff meetings requiring employee
travel.

                                                          3
NCUA's Conference Related Activities and Expenses
OIG-13-07

reported excessive conference expenses at multiple federal agencies. 3 Subsequently,
OMB issued instructions that addressed policies and controls associated with
conference-related activities and expenses. Specifically, OMB Memorandum M-11-35,
Eliminating Excess Conference Spending and Promoting Efficiency in Government, 4
instructed all agencies and departments to conduct a thorough review of the policies
and controls associated with conference-related activities and expenses. Moreover, the
President of the United States issued Executive Order 13589, Promoting Efficient
Spending, which required executive departments and agencies to establish a plan for
reducing the combined costs associated with travel, employee information technology
devices, printing, executive fleet efficiencies, and extraneous promotional items. The
President tasked OMB with monitoring the implementation of these plans.

During April 2012, the GSA OIG reported 5 that for the GSA Public Building Services’
2010 Western Regions Conference, many expenses were excessive and wasteful; and
that in many instances GSA did not follow federal procurement laws or GSA policy for
conference spending. Following the GSA OIG report, OMB issued Memorandum
M-12-12, Promoting Efficient Spending to Support Agency Operations, 6 requiring a
senior-level review of all planned and future conferences exceeding $100,000; a waiver
for any conference exceeding $500,000 in expenses; agencies to publicly report on all
conference expenses in excess of $100,000; and the posting of the agency head's
waiver that identified the exceptional circumstances that necessitated exceeding
$500,000.

As previously mentioned, as an independent agency, NCUA is not required to comply
with Executive Order 13589 or the ensuing OMB guidance. However, on January 23,
2013, NCUA issued NCUA Instruction 1501, Conference Planning Policies, Procedures,
and Approval Requirements, which consolidated conference policy guidance into a
single authoritative source with the intent to follow the spirit of Executive Order 13589
and OMB guidance issued through memorandums M-11-35 and M-12-12.

The Federal Travel Regulation (FTR) defines a conference as a meeting, retreat,
seminar, symposium, or event that involves attendee travel. 7 In addition, the Code of
Federal Regulations (5 CFR 410.404) states that agencies may sponsor an employee's
attendance at a conference as a developmental assignment under section 4110 of title
5, United States Code, when—

        a) The announced purpose of the conference is educational or instructional,
        b) The organized exchange of information between presenters and audience is
           more than half of the time scheduled and meets the definition of training in
           section 4101 of title 5, United States Code,
3
  United States Department of Justice OIG, Audit of Department of Justice Conference Planning and Food and
Beverage Costs, audit report number 11-43, originally issued September 2011 and revised October 2011.
4
  OMB issued M-11-35 on September 21, 2011.
5
  GSA OIG, 2010 Western Regions Conference, Management Deficiency Report, dated April 2, 2012.
6
  OMB issued M-12-12 on May 11, 2012.
7
  Federal Travel Regulation, Chapter 301, “Temporary Duty (TDY) Travel Allowances,” Appendix E to Chapter 301,
“Suggested Guidance for Conference Planning.”

                                                       4
NCUA's Conference Related Activities and Expenses
OIG-13-07

       c) The content of the conference is germane to improving individual and/or
          organizational performance, and
       d) The employee will derive developmental benefits through attendance.

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this audit was to determine whether NCUA’s conference related
activities and expenses complied with the spirit of the OMB instructions. To accomplish
our objective, we interviewed NCUA OHR management and staff. We obtained and
reviewed NCUA guidance, policies, procedures, and other available information
regarding conference activities and expenses for comparison with OMB instructions and
other Federal Government guidance. We also reviewed and analyzed procedures,
expenses, and other related information and activities for judgmentally selected NCUA
sponsored employee conferences occurring from January 2010 through January 2013.

We conducted this performance audit from January 2013 through May 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. Furthermore, we provided
NCUA management officials a discussion draft of this report and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

NCUA OIG has not conducted any prior audits of NCUA’s conference related activities
and expenses.




                                                5
NCUA's Conference Related Activities and Expenses
OIG-13-07

RESULTS IN DETAIL

As an independent agency, NCUA is not required to comply with Executive Order 13589
or ensuing OMB guidance. However, the results of our review concluded: (1) NCUA
has generally implemented conference policy and procedures that conform with the
intent of Executive Order 13589 and the spirit of OMB guidance; (2) NCUA’s conference
policy and guidelines generally meet and in some instances exceed federal policies and
guidelines in regards to conference spending and cost controls; and (3) NCUA could
improve agency transparency by publically reporting costs for all conferences exceeding
$100,000.

A. Conference Policy and Guidelines

 NCUA Conference Policy           We determined NCUA’s conference policy generally
 Generally Conforms               conforms with the intent of Executive Order 13589 and
 With Federal Guidelines          the spirit of OMB guidance. Specifically, we
                                  determined NCUA addressed both the intent and the
                                  spirit of Executive Order 13589 and OMB
Memorandums M-11-35 and M-12-12 with NCUA Instruction 1501, Conference
Planning Policies, Procedures, and Approval Requirements, which consolidated
conference policy guidance into a single authoritative source. As a result, we believe
NCUA is adequately following the intent and spirit of Federal conference guidelines,
despite no official requirement to comply.

Table 1 (below) summarizes how NCUA’s conference policy and other memorandums
comply with the intent and spirit of Executive Order 13589, OMB Memorandums M-11-35
and M-12-12, as well as other Federal Government guidelines.




                                                6
NCUA's Conference Related Activities and Expenses
OIG-13-07

Table 1

                          Conference Policies and Guidelines
 Federal Directives                        NCUA Instruction 1501 and Guidelines
                                           Consider using technology such as video
                                           conferencing and teleconferencing to
 Devise strategic alternatives to
                                           reduce travel and lodging costs.
 Government travel, including local or
 technological alternatives.
                                           Holding conferences in close proximity
 (Executive Order)
                                           of the largest concentration of
                                           attendees to minimize costs.

                                           Executive Director Memorandum
                                           addressed office and regional
 Seize every opportunity to improve        meetings costs and provided ways to
 Government performance and                promote greater efficiency and help
 management to save money and deliver a control costs.
 higher quality of service to the American
 people. (M-11-35)                         Management meetings that included all
                                           staff members require concurrence from
                                           the Deputy Executive Director.

 Implement a senior level review of all             Executive Director must approve any
 planned conferences that exceed                    conference with total projected costs
 $100,000. (M-12-12)                                exceeding $50,000.

                                                    Procurement activities comply with the
                                                    FAR.
 Ensure conference expenses and activities
 comply with the FTR, executive branch
                                           Hosting offices must use the agency
 policies on conferences and the FAR.
                                           event planner for off-site meetings with
 (M-12-12)
                                           over 25 participants and costs
                                           exceeding $50,000.

 Allows a conference lodging rate of 125            Event planner must obtain the GSA
 percent of the GSA per diem rate. (FTR)            lodging rate.

                                            NCUA National Conference was
 Obtain a waiver from the agency head for
                                            preplanned and included in the annual
 a single conference costing over $500,000.
                                            agency budget, which was approved by
 (M-12-12)
                                            the NCUA Board.




                                                7
NCUA's Conference Related Activities and Expenses
OIG-13-07

                                       We determined NCUA’s conference policy and
  NCUA Conference                      guidelines generally meet, and in some instances,
  Spending Guidance                    exceed federal policies and guidelines in regards to
  Generally Meets Federal              conference spending and cost controls. However,
  Guidelines                           we identified one inconsistency between NCUA’s
                                       Procurement Manual and Instruction 1501 regarding
the maximum allowable rate for sleeping accommodations. We also found that NCUA
did not publically disclose all conferences occurring in 2012 where the conference
expenses exceeded $100,000.

Reducing Conference Spending

Based on our review of NCUA conference guidance, we determined the policy and
strategies NCUA implemented should help reduce conference spending. OMB
Memorandum M-11-35 reminded the heads of Executive Departments and Agencies that
they must seize every opportunity to improve Government performance and management
to save money and deliver a higher quality of service to the American people. The
memorandum instructed all agencies to conduct a thorough review of the policies and
controls associated with conference-related activities and expenses. In addition, until
such time as the Deputy Secretary (or equivalent) could certify that the appropriate
policies and controls were in place to mitigate the risk of inappropriate spending practices
with regard to conferences, approval of conference-related activities and expenses were
to be cleared through the Deputy Secretary (or equivalent).

Consequently, NCUA’s Executive Director issued a memorandum to all directors in
December 2011, which addressed office and regional meeting costs and provided ways
to promote greater efficiency to help control costs. For example, the memorandum
stated that management meetings that included all staff members required concurrence
from the Deputy Executive Director. To minimize travel time and costs, the
memorandum required NCUA directors’ to consider the following when planning a
meeting:

   •   Choose locations close to major airport hubs to reduce the cost of airfare, the
       need for connecting flights, and to minimize travel time.

   •   Take advantage of lodging and per diem rates towards the lower end when
       compared to alternative locations.

   •   Centralize the conference location to reduce employee travel time.

   •   Obtain lodging within walking distance of restaurants to minimize taxi and rental
       car expenses.

In addition, NCUA Instruction 1501 established the policies, procedures, and approval
requirements for planning and conducting conferences and meetings, or similar. It
combined and revised policy guidance on the use of NCUA funds to purchase food and

                                                8
NCUA's Conference Related Activities and Expenses
OIG-13-07

beverages; consolidated the applicable policy guidance into a single authoritative
source; and formalized the processes and methods to both minimize total cost and
optimize the business benefits to participants. Instruction 1501 also includes
conference cost controls that apply to all conferences regardless of the size. For
example, conference organizers should:

      •   Consider using technology, i.e. video conferencing and teleconferencing, to
          reduce travel and lodging costs.

      •   Limit meals, receptions, outside speakers and promotional items to only those
          with a specific business need.

      •   Maximize the use of direct billing to NCUA, thereby taking advantage of tax
          exemption.

      •   Hold conferences in locations that minimize total costs and travel time.

Accordingly, it required that conferences be for business or training purposes and have
a direct relation to NCUA’s mission.

Conference Spending and Cost Control Guidelines

NCUA’s conference policy and guidelines generally meet, and in some instances,
exceed federal policies and guidelines in regards to conference spending and cost
controls. However, NCUA needs to ensure consistency exists among its policies
related to procuring sleeping accommodations.

OMB Memorandum M-12-12, section 2, entitled “Conferences,” outlines a series of new
policies and practices for conference sponsorship, hosting, and attendance, to ensure
federal agencies use their funds appropriately on these activities, and that they continue
to reduce spending on conferences where practicable. This memorandum requires
agencies to conduct a senior level review of all planned conferences that exceed
$100,000. Additionally, agencies must ensure conference expenses and activities
comply with the FTR, executive branch policies on conferences, and the Federal
Acquisition Regulation (FAR). Further, agencies can not incur any new conference
obligations until the reviews are completed.

In comparison, NCUA’s procurement activities comply with the FAR and NCUA uses the
GSA schedule and GSA’s Government-wide Acquisition Contracts (GWACs) 8 as its
preferred methods for fulfilling procurements. NCUA’s hotel procurement process 9 varies
based on the cost and number of sleeping rooms needed. For example, NCUA does not
have to use competitive bidding for lodging and meeting space of 200 or fewer sleeping
rooms per night costing $150,000 or less, in the aggregate, for the entire stay. However,

8
    NCUA Procurement Manual, Chapter I, page 1.
9
    NCUA Procurement Manual, Chapter II, page 4.

                                                   9
NCUA's Conference Related Activities and Expenses
OIG-13-07

the cost of lodging per night cannot exceed 150 percent of that permitted by the NCUA
Travel Manual 10 for the city where the hotel is located. In addition, when lodging and
meeting space exceeds 200 sleeping rooms per night, but costs less than $150,000,
NCUA may obtain a reasonable number of bids 11 and select the lowest bid or follow the
formal purchase method. 12 Finally, for lodging and meeting space exceeding 200
sleeping rooms per night and costing over $150,000, NCUA must follow the formal
purchase method when making the final site selection. Under this method, NCUA may
take into consideration other factors such as location, quality of facilities, meeting space,
city services, transportation, and safety.

In May 2012, the NCUA Executive Director issued a memorandum requiring the use of
the agency event planner for central and regional office off-site meetings with over 25
participants as a means to leverage the event planner’s expertise, which should result in
the agency obtaining the most cost effective arrangements. According to the
memorandum, the event planner duties included sending out the Request for Proposal
(RFP), reviewing the proposals, and providing the top two RFPs to the hosting office for
final selection. After the hosting office selects the location, the event planner handles
the negotiation and contracting duties for the hotel accommodations and meeting
space.

NCUA Instruction 1501 requires concurrence by the Executive Director for all
conferences where the total projected cost will exceed $50,000 and/or when lodging
costs will exceed the GSA allowance. 13 In addition, this instruction defines a large
conference as one having over 25 people and a total projected cost over $50,000,
including all related travel and per diem. Once the hosting office obtains concurrence
from the Executive Director for hosting a large conference, the event planner then
assumes responsibility for the RFP process. For small conferences, the hosting office
assumes responsibility for all facets of the event. Although the FTR allows a
conference lodging rate of 25 percent over the established lodging per diem rate, we
believe NCUA Instruction 1501, which requires the event planner to obtain the GSA
lodging rate, helps control costs.

During our review, we identified an inconsistency between NCUA guidelines when
procuring sleeping accommodations. Specifically, NCUA Instruction 1501 requires the
event planner to obtain the GSA rate when securing sleeping rooms; however, we found
that NCUA’s Procurement Manual had a maximum allowance of 150 percent of the
GSA lodging rate when less than 200 rooms were required and the event costs less
than $150,000. In addition, although NCUA Instruction 1501 requires concurrence of
the Executive Director for lodging costs exceeding the GSA allowance, NCUA’s
Procurement Manual does not. Because both documents cover similar types of events,


10
   NCUA’s Travel Manual lodging rate was the same as the GSA lodging rate.
11
   NCUA must obtain no less than three bids.
12
   The formal purchase method includes procurement planning; solicitation preparation and distribution (such as a
request for proposal), proposal evaluation; contract award; OIG access to contract information; and notification to
unsuccessful offerors [sic] and debriefings.
13
   Total projected costs include all projected travel, per diem, lodging, and conference expenses.

                                                         10
NCUA's Conference Related Activities and Expenses
OIG-13-07

we believe the language in both documents should be consistent. Therefore, we are
making the following recommendation to management:

Recommendation

We recommend NCUA management:

   1. Revise the language regarding the maximum allowable lodging rate in NCUA’s
      Procurement Manual and Instruction 1501 to ensure both documents are
      consistent.

Management Response

Management agreed and NCUA’s Office of the Chief Financial Officer plans to revise
the overall Procurement Manual in late 2013.

OIG Response

We concur with management’s planned actions.

Conference Expense Waiver

We determined that NCUA’s Board appropriately approved the 2012 National
Conference. We also determined that this approval was consistent with the spirit of
OMB Memorandum M-12-12, which became effective after NCUA held the 2012
National Training Conference.

Although OMB Memorandum M-12-12 prohibits spending over $500,000 on a single
conference, an agency head may grant a waiver under exceptional circumstances such
as the conference being the most cost-effective option to achieve a compelling purpose.
The agency head must document, in writing, the reason for any such waiver and include
it on the agency’s website when posting the conference’s costs and the related
activities.

Although the 2012 National Training Conference occurred prior to OMB issuing the
guidance, we learned NCUA management had preplanned this conference, which was
included in NCUA’s 2012 Board approved budget. Therefore, this conference had the
concurrence of the agency head. For transparency reasons, we believe that if a similar
situation were to occur in the future, NCUA management may want to consider posting
the approved waiver on its official website; therefore, we are making the following
suggestion:




                                               11
NCUA's Conference Related Activities and Expenses
OIG-13-07

Suggestion

We suggest NCUA management:

     1. Consider implementing a written waiver requirement process for any single
        conference exceeding $500,000 where the granted waiver is documented, in
        writing, and posted on the agency’s official website at the same time the agency
        posts the conference details and costs.

Management Response

Management agreed to consider implementing a written waiver requirement process for
any single conference exceeding $500,000.

OIG Response

We concur with management’s response.


Public Disclosure

We determined that NCUA could improve transparency by publically disclosing
individual conferences with expenses exceeding $100,000, which would comply with the
public disclosure intent of OMB Memorandum M-12-12. Although we determined NCUA
immediately posted the costs of its 2012 National Training Conference to its official
website, NCUA did not post six additional conferences occurring in 2012 where
expenses for each exceeded $100,000. As a result, NCUA did not meet the intent or
spirit of the OMB guidance for public disclosure of an individual conference with
expenses over $100,000.

Beginning January 31, 2013, OMB Memorandum M-12-12 required agencies to report
any agency-sponsored conference from the previous fiscal year 14 that exceeded
$100,000 in net expenses on their official agency website by January 31 of each year.
The memorandum stated that an agency’s website posting should include:

      •   The total conference expenses incurred by the agency for the conference;

      •   The location of the conference;

      •   The date of the conference;

      •   A brief explanation regarding how the conference advanced the mission of the
          agency; and

14
  The Federal Government fiscal year begins on October 1 and ends on September 30 of the following year.
However, NCUA operates on a calendar year basis, from January 1 through December 31.

                                                      12
NCUA's Conference Related Activities and Expenses
OIG-13-07



      • The total number of individuals for which the agency paid travel or other
        conference expenses.

We determined NCUA exceeded this requirement by issuing and posting to its official
website a media release 15 regarding the 2012 National Training Conference expenses
on May 10, 2012, in advance of OMB Memorandum M-12-12 and well before the
required due date. This media release stated that NCUA held the 2012 Regional
Conference from April 16-27, 2012, at the Buena Vista Palace in Orlando, Florida. 16
Additionally, the media release highlighted the focus of the conference, which was on
implementing greater exam consistency and included mandatory employee training.

The conference costs totaled $2.4 million, or an average cost of $2,037 per person for
NCUA's staff of 1,190. The costs included vendor fees, lodging, food and beverage,
audio visual, supplies, and miscellaneous costs, in addition to employee travel and per
diem expenses.

Although OMB Memorandum M-12-12 requires agencies to publically report all
conference costs greater than $100,000 on its website, our review disclosed NCUA did
not publically report by January 31, 2013, six subsequent 2012 off-site training
sessions, each exceeding the $100,000 threshold. Consequently, for these six
conferences, NCUA did not follow the intent or the spirit of OMB guidelines.

The FTR defines a conference as a meeting, retreat, seminar, symposium, or event that
involves attendee travel. NCUA sponsored six off-site training sessions from May
through December 2012, which met the FTR’s definition of a conference. 17 Table 2
(below) shows the location, dates, number of attendees, and costs for these six off-site
training conferences.




15
   NCUA, NCUA Implements New Supervision Manual and Consistent Exam Standards: National Training
Conference Invests in Workforce, Comes in Below Budget, May 10, 2012,
http://www.ncua.gov/News/Press/NW20120510NatlConference.pdf.
16
   NCUA divided the conference into two separate one-week sessions to accommodate NCUA’s staff of 1,190.
17
   The conference costs included expenses for lodging, consulting, refreshments, audio, video and printing/copies.

                                                         13
NCUA's Conference Related Activities and Expenses
OIG-13-07

Table 2

                                    NCUA 2012 Off-Site Training Conferences
                                                                                                    Average
                                                                         18       Number of
                Location                     Date                 Cost                              Cost Per
                                                                                  Attendees
                                                                                                    Person
             Gaylord Hotel
        1                             May 15-17, 2012            $135,730            192              $707
             Nashville, TN
             Adolphus Hotel
        2                             June 19-21, 2012           $126,734            225              $563
             Dallas, TX
             St Louis at the
        3    Ballpark Hotel            July 16-20, 2012          $129,538            228              $568
             St Louis, MO
             Intercontinental
             Dallas Hotel             September 11-13,
        4                                                        $172,975            283              $611
                                           2012
             Dallas TX
             Intercontinental
        5    Dallas Hotel           October 16-18, 2012          $160,630            264              $609
             Dallas TX
             The Seelbach
        6    Hilton Hotel            December 4-6, 2012          $114,718            266              $431
             Louisville, KY


We determined the above listed conferences, which NCUA held in various locations,
involved employee travel, averaged over 200 individuals per event, and included
multiple training classes covering various topics such as residential mortgage lending,
member business lending, fraud detection, consumer protection, capital markets and
problem resolution. Consequently, we believe these conferences related directly to
NCUA’s mission and therefore were a necessary and prudent expense. In keeping with
the spirit of OMB guidance, we believe NCUA should have posted the details and costs
of each of these conferences on its official website.

Although OMB guidance indicates that the use of the term conference hinges on
whether there is attendee travel, NCUA management believes that travel should not be
a determining factor as to whether an NCUA sponsored event is a conference.

We learned during our review that NCUA management interprets the term ‘conference’
to be an event where the purpose is for agency planning or a formal meeting, or there is
a strategic direction element, but not when the sole purpose and actual activities are
strictly limited to training. In addition, NCUA management indicated that the very nature
of its business model, where field staff work independently based out of their homes,
makes travel unavoidable for events such as training classes, conferences, or even
regular work assignments. Although we agree that NCUA’s business model makes

18
     These costs did not include employee travel expenses or daily meals and incidental expense allowances.

                                                          14
NCUA's Conference Related Activities and Expenses
OIG-13-07

travel unavoidable, Instruction 1501 makes no mention of its business model as it
relates to travel for training.

We determined NCUA’s current conference policy states conferences must be for a
business or training purpose, but does not exclude events that are either part of NCUA’s
regular training program or events that are limited solely to training; therefore, we are
making the following recommendations to management:

Recommendations

We recommend NCUA management:

   2. Revise NCUA Instruction 1501 to include a definition of a conference which takes
      into account NCUA’s rationale for not including any event requiring employee
      travel which is designated solely as training, as a conference.

   3. Ensure that by January 31 of each year, all conferences held during the
      preceding fiscal year where costs, including travel and per diem expenses,
      exceed $100,000 are posted on NCUA’s official website.

Management Response

Management agreed with the recommendations and plans to include a definition of a
conference in NCUA Instruction 1501 which will exclude events that are part of NCUA's
regular training program. In addition, management will not consider travel as a defining
factor for a conference since NCUA’s business model makes travel unavoidable for
most events. Furthermore, NCUA management will report any conferences that meet
the $100,000 threshold on the external website by January 31 of each year.

OIG Response

We concur with management’s planned actions.




                                               15
NCUA's Conference Related Activities and Expenses
OIG-13-07

B. NCUA Conference Review

                            We determined NCUA conducted conferences in
     NCUA Conferences       accordance with its conference policy or federal conference
     Complied With          guidelines. Specifically, we judgmentally selected and
     Federal Government     reviewed five national and management conferences
     Policy                 sponsored by NCUA from January 2010 through January
                            2013 and we performed a limited review of off-site
conferences conducted from 2010 through 2012. We determined that NCUA conducted
these conferences in accordance with established policy on spending and cost controls.
However, our review also disclosed NCUA did not always include all conference
expenditures such as employee transportation costs and daily meals and incidental
expense allowances (per diem) when disclosing the total cost of each conference. As a
result, neither NCUA management nor the public, through its official website, has an
accurate accounting of the costs of the conferences sponsored by NCUA.

2010 Regional Conference

NCUA held the 2010 Regional Conference from April 12-23, 2010, at the Buena Vista
Palace in Orlando, Florida. NCUA divided the conference into two one-week segments
with approximately half the agency’s employees attending the first week and the other
half attending the second week. The conference cost NCUA $1.1 million, which
included the hotel and meeting facility, facilitators, supplies, and miscellaneous items.
However, this amount did not include employee travel cost such as airfare, ground
transportation, or per diem. We determined the purpose of this conference was
mandatory employee training, and given NCUA’s organizational structure, was the most
prudent and cost effective method to ensure all employees received consistent training
related directly to NCUA’s mission.

The 2010 Regional Conference required over 200 sleeping rooms per week, and in
accordance with NCUA's Procurement Manual, the agency event planner sent an RFP
to sales representatives for all national hotel chains, convention visitor bureaus, and
third party hotel representatives of properties in the 48 contiguous states. The RFP
outlined the conference facility needs, which included sleeping rooms, meeting space,
and food and beverage requirements; as well as the contract award process, and
NCUA's cancellation policy. We determined the event planner conducted the required
evaluation after receiving the proposals and recommended the top two bids. NCUA
selected the conference site based on the lodging and per diem rates, location, date of
availability, convenience of restaurants, transportation accessibility, per person break
package, 19 complimentary meeting space, Internet access and hardwire Internet
equipment, and discounted audio visual equipment, all of which, according to OHR
personnel, represented the overall best value to NCUA.




19
     The daily break package included continental breakfast, and morning and afternoon refreshments.

                                                          16
NCUA's Conference Related Activities and Expenses
OIG-13-07

2012 National Training Conference

NCUA held the 2012 National Training Conference, formerly known as the Regional
Conference, from April 16-27, 2012, at the Buena Vista Palace in Orlando, Florida.
Again, NCUA divided the conference into two one-week segments with approximately
half of the agency’s employees attending the first week and the other half attending the
second week. The conference cost NCUA $2.4 million. This amount included vendor
fees, lodging, food and beverage, audio visual, supplies, and miscellaneous costs, in
addition to employee travel and per diem expenses. Again, we determined the purpose
of this conference was mandatory employee training, and given NCUA’s organizational
structure, was the most prudent and cost effective method to ensure all employees
received consistent training related directly to NCUA’s mission.

The 2012 National Training Conference required over 200 sleeping rooms per week,
and in accordance with NCUA's Procurement Manual, the agency event planner sent an
RFP to national hotel chains and third party representatives in Orlando and Tampa,
Florida; San Diego, California, and Denver, Colorado. The RFP outlined the conference
facility needs, which included lodging needs; meeting space, and food and beverage
requirements, as well as the contract award process, and NCUA's cancellation policy.
We determined the event planner conducted a proposal evaluation after receiving the
proposals and NCUA selected the eventual conference site based on the date of
availability, lodging rate, location, transportation accessibility, convenience of
restaurants, and discounted miscellaneous costs, which according to OHR staff,
represented the overall best value to NCUA.

2011 SSP Conference

NCUA held the 2011 SSP Conference from January 31 to February 3, 2011, at the
Hotel Monaco Baltimore 20 in Baltimore, Maryland. The conference cost the NCUA
$53,549, which included various expenses such as lodging, refreshments, audio visual
rental, conference facilitator, and supplies. Conference costs did not include employee
travel cost such as airfare, ground transportation, or per diem. We determined the 2011
SSP Conference met a business and training need because it brought senior staff
together for strategic planning discussion, training, and helped set the vision and
direction for the agency going forward.

Due to the conference size, NCUA's Procurement Manual did not require a full
competitive bidding process. Nonetheless, the agency event planner sent an RFP to
major hotel chains and third party vendors in Baltimore, Maryland and Philadelphia,
Pennsylvania. The RFP outlined conference facility needs, which included the
anticipated event dates; sleeping rooms, meeting space, and food and beverage
requirements, as well as the contract award process, and NCUA's cancellation policy.
NCUA received fourteen proposals from various hotels and the agency event planner
recommended the two best proposals to the NCUA Board for selection. The NCUA

20
     NCUA held the SSP Conferences from 2011 through 2013 at the Hotel Monaco in Baltimore, Maryland.

                                                        17
NCUA's Conference Related Activities and Expenses
OIG-13-07

Board Chairman approved the use of Hotel Monaco Baltimore for the 2011 SSP
Conference because Hotel Monaco was located in Baltimore, which meant any
conference attendee could easily travel to NCUA Headquarters in Alexandria, Virginia
should a situation arise in need of attention.

2013 SSP Conference

NCUA again selected the Hotel Monaco Baltimore for the 2013 SSP Conference, held
from January 28-31, 2013, not only because of its proximity to NCUA Headquarters, but
also because of the hotel's familiarity with NCUA's needs. In addition, the hotel agreed
to the same terms and pricing from the 2012 SSP Conference contract for lodging, food
and beverages, audio visual needs, and the complimentary meeting space. Because
NCUA required fewer than 200 sleeping rooms for this conference, agency policy did
not require a full competitive bidding process. However, NCUA did initially select the
hotel for the 2011 SSP Conference through a bid proposal process. The conference
cost the NCUA $62,399, excluding employee transportation and per diem expenses. As
with the 2011 SSP Conference, we determined this conference also met a business and
training need and had a direct relation to NCUA’s mission.

2011 Leadership Conference

NCUA held its 2011 Leadership Conference at the Westin Hotel in San Diego, California
from April 4-7, 2011. For this conference, NCUA needed less than 150 sleeping rooms;
therefore, a full competitive bidding process was not required. However, the agency
event planner sent an RFP to national hotel chains and third party vendors in
Charleston, South Carolina; Savannah, Georgia; Tampa, Florida, and San Diego,
California. The RFP outlined conference facility needs, which included the anticipated
event dates; sleeping rooms, meeting space, and food and beverage requirements; the
contract award process, and NCUA's cancellation policy. OHR staff concluded the
Westin Hotel provided the best overall value to NCUA based on several factors such as
the facility availability, complimentary meeting space, direct flight accessibility, proximity
of restaurants, and discounted rates for Internet access, audio visual equipment, and
food and beverages. In addition, this conference brought all NCUA managers and
supervisors together to collaborate and focus on critical issues and strategic planning
for the agency, and to receive training on the agency's latest polices; thereby providing
agency leadership with the skills necessary to perform their jobs. Consequently, we
determined the 2011 Leadership Conference met a business and training need by
having a direct relation to NCUA’s mission. The conference costs totaled $297,854,
which did not include employee travel and per diem expenses.

2010-2012 Off-Site Conferences

According to the FTR, a conference is a meeting, retreat, seminar, symposium, or event
that involves attendee travel. In addition, staff training is an essential element of
NCUA's supervisory program and with 75 percent of NCUA staff geographically
dispersed, most of NCUA training classes and staff meetings necessitate employee

                                               18
NCUA's Conference Related Activities and Expenses
OIG-13-07

travel. Therefore, we performed a limited review of the training classes conducted from
2010 through 2012. We determined that off-site conferences were for business or
training purposes and had a direct relation to NCUA's mission. According to NCUA
staff, all off-site conference attendance and expenses were limited to only the staffing
level required to carry out the mission of the conference. We found that to minimize
costs, NCUA held off-site conferences in close proximity of the largest concentration of
attendees.

From 2010 through 2012, NCUA held off-site training conferences in Anaheim and Long
Beach, California; Denver, Colorado; Jacksonville, Florida; Louisville, Kentucky;
Chicago, Illinois; Indianapolis, Indiana; Kansas City and St Louis, Missouri; Nashville,
Tennessee; Charlotte, North Carolina; and Dallas and San Antonio, Texas. These
sessions included regularly scheduled continuing professional training for NCUA
examiners and included such subjects as residential mortgage lending, consumer
compliance, fraud detection, problem resolution, consumer lending, as well as other
topics. NCUA offered these subjects at various locations throughout the country and on
a recurring basis.

We performed a limited review of NCUA off-site conferences held during 2010. We
determined that because each of these off-site conferences required fewer than 200
sleeping rooms, NCUA could have selected a hotel without using the competitive
bidding process. However, to minimize costs and attendee travel time, NCUA staff sent
RFPs to sales representatives for national hotel chains and third party hotel
representatives in Denver, Colorado; Jacksonville, Florida; Chicago, Illinois and Kansas
City and St. Louis, Missouri. We determined that these off-site conferences related
directly to NCUA’s mission.

Finally, because NCUA policy was consistent with federal policies for conference
spending and cost controls, we determined that the conferences held from 2012 through
January 2013 also complied with the spirit of Executive Order 13589 and OMB
Memorandum M-11-35. However, NCUA only included employee travel and per diem
expenses for the 2012 National Training Conference. In keeping with the spirit of OMB
Memorandum M-12-12, NCUA should capture all conference expenses such as
employee travel and per diem costs and include those costs as part of its total
conference expenses. Accordingly, we are making the following recommendation:

Recommendation

We recommend that NCUA management:
   4. Identify all expenditures associated with any conference, including employee
      travel and daily per diem expenses, for inclusion in the total conference cost, and
      ensure those conferences exceeding $100,000 are posted on NCUA’s official
      website as noted in Recommendation 3.




                                               19
NCUA's Conference Related Activities and Expenses
OIG-13-07

Management Response

Management agreed to collect and report conference costs annually and to report
conferences exceeding $100,000 on the external website by January 31 of each year.

OIG Response

We concur with management’s planned actions.




                                               20
NCUA's Conference Related Activities and Expenses
OIG-13-07

Appendix A: NCUA Management Response




                                               21
NCUA's Conference Related Activities and Expenses
OIG-13-07




                                               22
